      Department of Homeland Security




               Review of Costs Claimed by 

    Washington Township, MI, Fire Department Under 

        Fire Station Construction Grant Number 

                  EMW-2009-FC-01152R 





            American Recovery and Reinvestment Act of 2009



OIG-12-90                                                    June 2012

                          OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

                               Washington, DC 20528 1 www.oig.d hs.gov


                             JUN 1 8 2012
MEMORANDUM FOR:          Elizabeth M. Harman
                         Assistant Administrator, Grant Programs Directorate
                         Federal Emergency Management Agency

FROM:                    Anne L. Richards      -f>r M..£~
                         Assistant Inspector GeL.;        ;or Audits
SUBJECT:                 Review of Costs Claimed by Washington Township, MI, Fire
                         Department Under Fire Station Construction Grant Number
                         £MW-2009-FC-Ol152R

Attached for your action is our final letter report, Review of Costs Claimed by Washington
Township, MI, Fire Department Under Fire Station Construction Grant Number EMW-
2009-FC-01152R. We incorporated the formal comments from the Office of Policy and
Program Analysis, Federal Emergency Management Agency (FEMA), in the final report.

The report contains one recommendation for FEMA to resolve $78,020 of questionable
costs that Washington Township claimed for reimbursement. The Office of Policy and
Program Analysis concurred with the recommendation and said that it would direct
Washington Township to return the $78,020. As prescribed by the Department of
Homeland Security Directive 077-1, Follow-Up and Resolutions for the Office of
Inspector General Report Recommendations, within 90 days of the date of this
memorandum, please provide our office with a written response that includes your
(1) agreement or disagreement, (2) corrective action plan, and (3) target completion
date for the recommendation. Also, please include responsible parties and supporting
documents needed to inform us on the status of the recommendation. Until your
response is received and evaluated, the recommendation will be considered open and
unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing
copies of our report to congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. We will post the report on
our website for public dissemination.

Major contributors to this report are Roger LaRouche, Director of Recovery Act Audits;
Matt Mongin, Auditor; and Ralleisha Dean, Report Referencer.

Should you have any questions, please call me, or your staff may contact
John E. McCoy II, Deputy Assistant Inspector General for Audits, at (202) 254-4100.

Attachment
                             OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security



   Background
   The American Recovery and Reinvestment Act of 2009 (Recovery Act), as amended,
   appropriated $210 million to the Federal Emergency Management Agency (FEMA) for
   competitive grants for modifying, upgrading, or constructing nonfederal fire stations.
   On September 25, 2009, FEMA awarded a grant of $1,510,016 to the Washington
   Township, Michigan, Fire Department for constructing a new fire station.

   The grant specified a period of performance from September 25, 2009, to September 24,
   2012. As of September 30, 2011, Washington Township had completed the
   construction of the new fire station (see figure 1) and had received reimbursements of
   $1,434,504 from FEMA for design, engineering, construction, and management of the
   project.

                  Figure 1: Washington Township New Fire Station





   Source: Washington Township

   Under the terms of the grant, Washington Township agreed to use the grant funds
   according to FEMA’s fiscal year 2009 A.R.R.A. Assistance to Firefighters, Fire Station
   Construction Grants, Guidance and Application Kit (Guidance and Application Kit), and
   to comply with Office of Management and Budget (OMB) Circular A-87, Revised, Cost
   Principles for State, Local and Indian Tribal Governments, and the Uniform Administrative
   Requirements for Grants and Cooperative Agreements to State and Local Governments
   contained in the Code of Federal Regulations (44 CFR Part 13).

   The grant also includes requirements for complying with OMB Circular A-133, Revised,
   Audits of States, Local Governments, and Non-Profit Organizations, and Recovery Act
   provisions for submitting quarterly recipient reports to the Federal Government on the
   use of Recovery Act funds; paying prevailing wages as determined by the Secretary of
   Labor; and using American-made iron, steel, and manufactured goods.


www.oig.dhs.gov                                 2                                   OIG-12-90
                             OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security



   Results of Audit
   Of the $1,434,504 claimed for reimbursement by Washington Township, we questioned
   costs of $78,020 for purchases of professional services that did not comply with
   procurement requirements. Also, we concluded that Washington Township complied
   with grant requirements for submitting quarterly Recovery Act reports to the Federal
   Government and for ensuring that contractors were paid prevailing wages and used
   American-made iron, steel, and manufactured goods in the construction of the new fire
   station.

   Purchase Not in Compliance With Procurement Requirements

   We questioned costs of $78,020 claimed for the noncompetitive purchase of
   architectural services by Washington Township that were not in compliance with its
   Purchasing and Bid Policy and Federal procurement regulations.

   Section 6 of the Washington Township Purchasing and Bid Policy requires that—

           6.1 	   All purchases of goods and services and all contracts for recurring
                   services must be competitively priced unless the purchase falls under
                   the EMERGENCY PURCHASE GUIDELINES.

           6.2 	   Informal bids (quotes) are required for all purchases of goods or services
                   between $0 and $20,000.

           6.3 	   Bids or proposals for recurring services or contracted labor, including
                   professional services greater than $10,000.00, must be solicited....

   Section 7 of the Purchasing and Bid Policy says that normal purchasing procedures
   need not be followed in emergency situations “only when life, property or equipment
   are endangered through unexpected circumstances, or when normal operation of a
   department would be severely hampered by a long delay.” In such cases, the township
   supervisor, or in the supervisor’s absence, the clerk or treasurer with the concurrence
   of the department head, can authorize immediate purchase of any materials, supplies,
   or services necessary to end the emergency situation.

   FEMA’s Guidance and Application Kit stresses the need for competitive procurements,
   summarizes Federal requirements for procurement documentation and use of
   specifications, and cautions against personal and organizational conflicts of interest.
   The kit warns that grantees “who fail to adhere to their own procurement policy or
   otherwise fail to fully ‘compete’ any purchase involving Federal funds, may find their
   expenditures questioned and subsequently disallowed.” The Uniform Administrative


www.oig.dhs.gov                                  3                                 	 OIG-12-90
                            OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


   Requirements for Grants and Cooperative Agreements to State and Local Governments,
   44 CFR Part 13.36, requires that a cost or price analysis be performed in connection
   with every procurement action, including contract modifications, to determine the
   reasonableness of proposed price. 44 CFR Part 13.36 also says that noncompetitive
   purchases can be used, but only when a contract award under small purchase
   procedures, sealed bids, or competitive proposals is infeasible, and the item or service
   is available from a single source; a public emergency precludes normal competition; the
   awarding agency authorizes the noncompetitive proposal; or after solicitation of a
   number of sources, competition is determined to be inadequate.

   SDA Architects

   In June 2009, Washington Township awarded a contract to SDA Architects following a
   competitive bid procedure to replace a roof on an existing fire station. In August 2009,
   after FEMA announced the Fire Station Construction grant competition, Washington
   Township expanded SDA’s effort to include preparing a set of building plans and
   specifications that could be used to procure the new fire station. Washington Township
   claimed $78,020 of fees paid to SDA Architects in its requests for reimbursement to
   FEMA.

   We questioned the $78,020 because Washington Township noncompetitively procured
   these professional services for the fire station construction project and did not perform
   a cost and price analysis to confirm that the price was fair and reasonable. Also,
   Washington Township did not prepare a sole-source procurement justification or
   obtain FEMA approval for the purchase. Washington Township officials said that they
   engaged SDA without competition for the fire station construction project because of
   time constraints. The FEMA Fire Station Construction Grant placed a premium on
   “shovel-ready” projects that were ready to build. Township officials believed that, to be
   competitive, the township needed to submit building plans with its application. Finally,
   Washington Township officials said that they were not aware of the Federal requirement
   to prepare a cost and price analysis or seek FEMA approval for a noncompetitive
   procurement.

   Compliance With Requirements for Reporting, Buying American, and Paying
   Prevailing Wages

   The Recovery Act requires recipients to submit quarterly reports on project activities to
   the Federal Government; to ensure that projects are accomplished with American-
   made iron, steel, and manufactured goods; and to ensure that laborers and mechanics
   are paid, at a minimum, prevailing wages as determined by the Secretary of Labor
   under 40 U.S.C. Chapter 31, Subchapter IV. We verified that Washington Township
   submitted the required quarterly reports. Also, Washington Township included “Buy


www.oig.dhs.gov                                 4                                   OIG-12-90
                             OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


   American” and prevailing wage provisions in the construction contracts for the fire
   station and instituted sufficient controls to ensure that these provisions were honored.
   Controls included written requirements for subcontractors to comply with the
   requirements; review and certification of all invoices by the architect; daily oversight by
   the general contractor; and a requirement for vendors/contractors to submit pay
   vouchers showing payment of prevailing wages.

   Recommendation
   We recommend that the Assistant Administrator, Grant Programs Directorate:

   Recommendation #1:

   Resolve the questioned costs of $78,020 pertaining to the contract that was
   noncompetitively awarded.

   Management Comments and OIG Analysis
   FEMA Comments to Recommendation #1

   FEMA concurs: FEMA said that “Within 30 days of receipt of the final report, the Grant
   Program Directorate will request that FEMA’s Finance Center notify the grantee that
   $78,020 is due to the Federal Government and inform the grantee about FEMA’s debt
   collection procedures.”

   OIG Analysis:

   The FEMA response sufficiently responds to the recommendation. The
   recommendation, however, will remain unresolved and open until FEMA provides a
   target completion date or evidence that the grantee has repaid the $78,020.




www.oig.dhs.gov                                 5                                    OIG-12-90
                         OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security



Appendix A
Objectives, Scope, and Methodology
The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

The objective of this audit was to determine whether costs claimed by Washington
Township were allowable, allocable, and reasonable according to the grant and
applicable Federal regulations.

This audit covered costs of $1,434,504 claimed by Washington Township from
September 2009 to September 2011 and reimbursed by FEMA.

In conducting our audit, we did the following:

   Obtained and reviewed the Recovery Act, the grant application and award, the grant
   Guidance and Application Kit, and Federal cost principles and grant administrative
   requirements.

   Interviewed Washington Township personnel to gain an understanding of their
   accounting system and the applicable internal controls.

   Reviewed the fiscal year 2010 single audit report and interviewed the responsible
   auditor to identify issues and other conditions that could affect our examination.

   Reviewed the recipient’s internal controls specifically related to our objectives.

   Examined vendor invoices and other evidence supporting 100 percent of costs
   incurred and claimed for FEMA reimbursement.

   Reviewed contract files and supporting documentation for primary contractors and
   professional service providers for the fire station construction project.

   Reviewed accounting transactions related to purchases, payments, and receipt of
   FEMA reimbursements.

   Used the grant provisions and applicable Federal requirements to determine 

   whether amounts claimed were eligible for reimbursement.



www.oig.dhs.gov                             6                                  OIG-12-XXX
                             OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


       Performed fraud detection procedures.

       Inspected the new fire station and surrounding property.

   We conducted this performance audit between August 22, 2011 and November 30, 2011,
   pursuant to the Inspector General Act of 1978, as amended, and according to generally
   accepted government auditing standards. Those standards require that we plan and
   perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
   for our findings and conclusions based upon our audit objectives. We believe that the
   evidence obtained provides a reasonable basis for our findings and conclusions based
   upon our audit objectives.




www.oig.dhs.gov                                7                                    OIG-12-90
                                OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security


Appendix B
Management Comments to the Draft Report

                                                                         U.S. I)t p.rtnltn t or lI omtlllnd Stellrl,,·
                                                                                      Washington. DC 20472




                                                                          ~. FEMA
                                              ~y 09 11111



          MEMORANDUM FOR:               Anne L Richards
                                        Assistant Inspector Genera l for Audits
                                        Office of Inspector Gcner.t1

          FROM:                         David J. KallfmantJf   ~
                                        Director      , - -
                                        FEMA Office of Policy and Program Analysis

          SUBJECT:                      Comments to 010 Draft Repot1,     COSIS     Invoiced by the Washingtoll
                                        TOWlJship, MI Fire Depal'tmelllllllder Fire Slmion COIIstrllclioIJ Gram
                                        No. Efot/IV·1009·FC·O I1 51R Awarded by F£MA


          Thank you for the opportunity to comment on the subject draft report . The find ings in the report w ill
          be used to strengthen the effecti veness and cfficicncy of how we execute and measure our programs.
          We recognize the need to continue to improve the proc(..'Ss, including addressing the recommendation
          raised in this repon. Our response to the rccommendmion is as follows:

          Recommendation # 1: Resolve the questioned costs ofS78,020 pertaining to the contracts that were
          noncompeti tivclyawarded.

          FE 1A Response: FEMA concurs with this recommendation to resolvc the questioncd costs of
          $78,020. Based upon our review and discussion o rthe OIG 's dmfi repan, FEMA staff will requcst
          Washington Township to relurn the S78,020 spent on the SDA Architects. In accordance with 44
          CFR J3.36(d)(4) Washinglon Township failed to meet any of the conditions necessary to justify sole
          source procurement orthe SDA Architects for thcir Fire Station Construction Grunt.

          Within 30 days of receipt orthe final report, the Grant Programs Directorate will request that
          FEMA 's Finance Center notify the grantee thai S78,020 is due to the federal government and infonn
          the grantee about FEMA's debt collection procedures.

          FEMA requests this recommendation be reso lved and open pending implementation of the statoo
          corrccti vc actions.

          Again, we thank you for the opportunity 10 revicw your rcport. If you have further questions, please
          do not hesitate 10 call Brad Shcfka, FEMA Audit Liaison Office, 202·646~ 1308.




www.oig.dhs.gov                                            8                                                             OIG-12-XXX
                           OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


Appendix C
Report Distribution
Department of Homeland Security

Secretary
Deputy Secretary
Chief of Staff
Deputy Chief of Staff
General Counsel
Executive Secretary
Director, GAO/OIG Liaison Office
Assistant Secretary for Office of Policy
Assistant Secretary for Office of Public Affairs
Assistant Secretary for Office of Legislative Affairs
Recovery Act Coordinator

Federal Emergency Management Agency

Administrator
Assistant Administrator, Grant Programs Directorate,
  Federal Emergency Management Agency
Audit Liaison Official

Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress

Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                               9                         OIG-12-XXX
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
